APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS,
FOR THE NINTH CIRCUIT
_______
No. 17-16756
_______
MICAH JESSOP; BRITTAN ASHJIAN,
Plaintiffs-Appellants,
v.
CITY OF FRESNO; DERIK KUMAGAI; CURT CHASTAIN;
TOMAS CANTU,
Defendants-Appellees.
_______
D.C. No. 1:15-cv-00316-DAD-SAB
_________
ORDER AND OPINION
_________
Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Argued and Submitted December 18, 2018
San Francisco, California
Filed September 4, 2019

2a
Before: MILAN D. SMITH, JR., JACQUELINE H.
NGUYEN, Circuit Judges,
and Jane A. Restani,* Judge.
Order;
Opinion by Judge Milan D. Smith, Jr.;
Concurrence by Judge Milan D. Smith, Jr.
_______
ORDER
The prior opinion in this case, found at Jessop v.
City of Fresno, 918 F.3d 1031 (9th Cir. 2019), is
hereby withdrawn. A superseding opinion will be
filed concurrently with this order. PlaintiffsAppellants’ petition for rehearing en banc remains
pending.
_______
OPINION
M. SMITH, Circuit Judge:
Micah Jessop and Brittan Ashjian (Appellants)
appeal an order granting a motion for summary
judgment on a defense of qualified immunity. City of
Fresno and Fresno police officers Derik Kumagai,
Curt Chastain, and Tomas Cantu (the City Officers)
filed the motion in an action alleging that the City
Officers violated the Fourth and Fourteenth
Amendments when they stole Appellants’ property

*

The Honorable Jane A. Restani, Judge for the United States
Court of International Trade, sitting by designation.

3a
during the execution of a search and seizure
pursuant to a warrant.
At the time of the incident, there was no clearly
established law holding that officers violate the
Fourth or Fourteenth Amendment when they steal
property seized pursuant to a warrant. For that
reason, the City Officers are entitled to qualified
immunity.
FACTUAL AND PROCEDURAL
BACKGROUND
As part of an investigation into illegal gambling
machines in the Fresno, California area, the City
Officers executed a search warrant at three of
Appellants’ properties. The warrant, signed by
Fresno County Superior Court Judge Dale Ikeda,
authorized the
seiz[ure]
[of]
all
monies,
negotiable
instruments, securities, or things of value
furnished or intended to be furnished by any
person in connection to illegal gambling or
money laundering that may be found on the
premises . . . [and] [m]onies and records of said
monies derived from the sale and or control of
said machines.
If the City Officers found the property listed, they
were “to retain it in [their] custody, subject to the
order of the court as provided by law.”
Following the search, the City Officers gave
Appellants an inventory sheet stating that they
seized approximately $50,000 from the properties.
Appellants allege, however, that the officers actually
seized $151,380 in cash and another $125,000 in rare
coins. Appellants claim that the City Officers stole

4a
the difference between the amount listed on the
inventory sheet and the amount actually seized from
the properties.
Appellants brought suit in the Eastern District of
California alleging, among other things, claims
against the City Officers pursuant to 42 U.S.C. §
1983 for Fourth and Fourteenth Amendment
violations. The City Officers moved for summary
judgment based on qualified immunity. The district
court granted the motion and dismissed all of
Appellants’ claims.
JURISDICTION AND
STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review summary judgment determinations, and
officers’ entitlement to qualified immunity, de novo.
Glenn v. Washington County, 673 F.3d 864, 870 (9th
Cir. 2011).
ANALYSIS
“The doctrine of qualified immunity protects
government officials ‘from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of
which a reasonable person would have known.’”
Pearson v. Callahan, 555 U.S. 223, 231 (2009)
(quoting Harlow v. Fitzgerald, 457 U.S. 800, 818
(1982)). “In determining whether an officer is
entitled to qualified immunity, we consider (1)
whether there has been a violation of a constitutional
right; and (2) whether that right was clearly
established at the time of the officer’s alleged
misconduct.” Lal v. California, 746 F.3d 1112, 1116
(9th Cir. 2014).

5a
I. Fourth Amendment
The parties dispute whether the City Officers’
actions violated the Fourth Amendment. The City
Officers insist that because they seized Appellants’
assets pursuant to a valid warrant, they did not
violate the Fourth Amendment. Appellants, by
contrast, argue that the City Officers’ alleged theft
was an unreasonable seizure under the Fourth
Amendment.
Although courts were formerly required to
determine whether plaintiffs had been deprived of a
constitutional right before proceeding to consider
whether that right was clearly established when the
alleged violation occurred, see Saucier v. Katz, 533
U.S. 194, 201 (2001), the Supreme Court has since
instructed that courts may determine which prong of
qualified immunity they should analyze first.
Pearson, 555 U.S. at 236. Addressing the second
prong before the first is especially appropriate where
“a court will rather quickly and easily decide that
there was no violation of clearly established law.” Id.
at 239. This is one of those cases.
A defendant violates an individual’s clearly
established rights only when ‘the state of the law’ at
the time of an incident provided ‘fair warning’” to the
defendant that his or her conduct was
unconstitutional. Tolan v. Cotton, 572 U.S. 650, 656
(2014) (quoting Hope v. Pelzer, 536 U.S. 730, 741
(2002)). “We do not require a case directly on point,
but existing precedent must have placed the
statutory or constitutional question beyond debate.”
Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011). Thus,
“[t]he contours of the right must be sufficiently clear
that a reasonable official would understand that

6a
what he is doing violates that right.” Anderson v.
Creighton, 483 U.S. 635, 640 (1987). “[W]e may look
at unpublished decisions and the law of other
circuits, in addition to Ninth Circuit precedent.”
Prison Legal News v. Lehman, 397 F.3d 692, 702 (9th
Cir. 2005).
We have never addressed whether the theft of
property covered by the terms of a search warrant,
and seized pursuant to that warrant, violates the
Fourth Amendment. 1 The only circuit that has
addressed that question—the Fourth Circuit—
concluded in an unpublished decision that it does.
See Mom’s Inc. v. Willman, 109 F. App’x 629, 636-37
(4th Cir. 2004). Mom’s involved federal agents who
failed to return the plaintiffs watch after the
execution of a search warrant. Id. at 633. Relying on
the Supreme Court’s decision in United States v.
Place, 462 U.S. 696 (1983), the court reasoned that
the Fourth Amendment “regulates all [] interference”
with an individual’s possessory interests in property,
“not merely the initial acquisition of possession.”
Mom’s, 109 F. App’x at 637. Thus, because the
agents’ theft of the watch interfered with the
plaintiff’s interest in it, “such theft violates the
Fourth Amendment.” Id.

1

Importantly, we observe that the technical legal question of
whether the theft of property covered by the terms of a search
warrant, and seized pursuant to that warrant, violates the
Fourth Amendment is a different question from whether theft
is morally wrong. We recognize that theft is morally wrong, and
acknowledge that virtually every human society teaches that
theft generally is morally wrong. That principle does not,
however, answer the legal question presented in this case.

7a
Although we have not addressed this precise
question, our decision in Brewster v. Beck is
instructive. 859 F.3d 1194 (9th Cir. 2017). There,
officers impounded the plaintiff’s vehicle pursuant to
a statute that authorized the seizure of vehicles
when the driver had a suspended license. Id. at 1195.
When the plaintiff later “appeared at a hearing . . .
with proof that she was the registered owner of the
vehicle and her valid California driver’s license,”
however, the government refused to release the
vehicle to her. Id. We reasoned that the Fourth
Amendment was implicated by the government’s
actions because “[t]he Fourth Amendment doesn’t
become irrelevant once an initial seizure has run its
course.” Id. at 1197. Because “[t]he exigency that
justified the seizure [of the plaintiff’s vehicle]
vanished once the vehicle arrived in impound and
[the plaintiff] showed up with proof of ownership and
a valid driver’s license,” we held that the
government’s
impoundment
of
the
vehicle
“constituted a seizure that required compliance with
the Fourth Amendment.” Id. at 1196-97.
Brewster’s reasoning suggests that the City
Officers’ alleged theft of Appellants’ property could
also implicate the Fourth Amendment. Although the
City Officers seized Appellants’ money and coins
pursuant to a lawful warrant, their continued
retention—and alleged theft—of the property might
have been a Fourth Amendment seizure because
“[t]he Fourth Amendment doesn’t become irrelevant
once an initial seizure has run its course.” Id. at
1197.
Brewster’s facts, however, vary in legally
significant ways from those in this case. Whereas

8a
Brewster concerned the government’s impoundment
of a vehicle, id. at 1195, Appellants argue that the
City Officers stole their property. And while Brewster
involved the seizure of property pursuant to an
exception to the warrant requirement, id. at 1196,
the City Officers seized Appellants’ property
pursuant to a warrant that authorized the seizure of
the items allegedly stolen.
Even if the facts and reasoning of Brewster would
dictate the outcome of this case, however, it was not
clearly established law when the City Officers
executed the search warrant. The City Officers
seized Appellants’ property in 2013, but Brewster
was not decided until 2017. For that reason, we need
not decide whether the City Officers violated the
Fourth Amendment. The lack of “any cases of
controlling authority” or a “consensus of cases of
persuasive authority” on the constitutional question
compels the conclusion that the law was not clearly
established at the time of the incident. Wilson v.
Layne, 526 U.S. 603, 617 (1999). Although the City
Officers ought to have recognized that the alleged
theft of Appellants’ money and rare coins was
morally wrong, they did not have clear notice that it
violated the Fourth Amendment—which, as noted, is
a different question. The Fourth Circuit’s
unpublished decision in Mom’s—the only case law at
the time of the incident holding that the theft of
property seized pursuant to a warrant violates the
Fourth Amendment—did not put the “constitutional
question beyond debate.” al-Kidd, 563 U.S. at 741.
Nor is this “one of those rare cases in which the
constitutional right at issue is defined by a standard
that is so ‘obvious’ that we must conclude . . . that

9a
qualified immunity is inapplicable, even without a
case directly on point.” A.D. v. Cal. Highway Patrol,
712 F.3d 446, 455 (9th Cir. 2013). We recognize that
the allegation of any theft by police officers—most
certainly the theft of over $225,000—is deeply
disturbing. Whether that conduct violates the Fourth
Amendment’s prohibition on unreasonable searches
and seizures, however, would not “be ‘clear to a
reasonable officer.’” Id. at 454 (quoting Brosseau v.
Haugen, 543 U.S. 194, 199 (2004) (per curiam)).2
Appellants have failed to show that it was clearly
established that the City Officers’ alleged conduct
violated the Fourth Amendment. Accordingly, we
hold that the City Officers are protected by qualified
immunity against Appellants’ Fourth Amendment
claim.
II. Fourteenth Amendment
Appellants’ Fourteenth Amendment claim suffers
the same fate. Appellants argue that the City
Officers’ theft of their property violated their
substantive due process rights under the Fourteenth
Amendment. Assuming that to be true, however, the
City Officers are entitled to qualified immunity
because that right was not clearly established. We
have not held that officers violate the substantive
due process clause of the Fourteenth Amendment
when they steal property seized pursuant to a
warrant. The Seventh Circuit is the only circuit that
2

As the district court recognized, such conduct might instead
be punishable under California tort law. Cf. United States v.
Jakobetz, 955 F.2d 786, 802 (2d Cir. 1992) (“Jakobetz may be
able to argue that a New York court violated a statutory right
under New York law.”).

10a
has addressed the related question of whether the
government’s refusal to return lawfully seized
property to its owner violates the Fourteenth
Amendment; it held that the substantive due process
clause does not provide relief against that conduct.
See Lee v. City of Chicago, 330 F.3d 456, 466-68 (7th
Cir. 2003). Because the City Officers could not have
known that their actions violated the Fourteenth
Amendment’s substantive due process clause, they
are entitled to qualified immunity against
Appellants’ Fourteenth Amendment claim.
CONCLUSION
We sympathize with Appellants. They allege the
theft of their personal property by police officers
sworn to uphold the law. If the City Officers
committed the acts alleged, their actions were
morally reprehensible. Not all conduct that is
improper or morally wrong, however, violates the
Constitution. Because Appellants did not have a
clearly
established
Fourth
or
Fourteenth
Amendment right to be free from the theft of
property seized pursuant to a warrant, the City
Officers are entitled to qualified immunity.
AFFIRMED.

11a
M. SMITH, Circuit Judge, specially concurring:
As the panel opinion recognizes, there is no
question that the City Officers’ alleged conduct, if
true, was morally reprehensible. Whether something
violates the Fourth Amendment, however, is a
different question from whether it is outrageous and
morally wrong. I write separately to share my view
why, even if Brewster v. Beck were decided before the
City Officers’ alleged theft, it is not clear that the
officers violated the Fourth Amendment. 859 F.3d
1194 (9th Cir. 2017).
Brewster’s reasoning appears to conflict with the
Supreme
Court’s
jurisprudence
on
Fourth
Amendment seizures. The Court has defined a
seizure as “a single act, and not a continuous fact.”
Thompson v. Whitman, 85 U.S. (18 Wall.) 457, 471
(1873). “From the time of the founding to the
present, the word ‘seizure’ has meant a ‘taking
possession.’” California v. Hodari D., 499 U.S. 621,
624 (1991) (quoting 2 N. Webster, An American
Dictionary of the English Language 67 (1828); 2 J.
Bouvier, A Law Dictionary 510 (6th ed. 1856);
Webster’s Third New International Dictionary 2057
(1981)). Whereas Brewster held that the Fourth
Amendment continues to apply after the
government’s initial seizure of property, these
Supreme Court cases suggest that, once the
government has taken possession of property, a
seizure is complete. It is “[p]ossession, which follows
seizure, [that] is continuous.” Thompson, 85 U.S. (18
Wall.) at 471.
Perhaps because of the Court’s case law, Brewster’s
reasoning also conflicts with that of several other
circuits, which have concluded that the Fourth

12a
Amendment provides protection only against the
initial taking of property, not its continued retention.
See Lee v. City of Chicago, 330 F.3d 456, 460-66 (7th
Cir. 2003); Fox v. Van Oosterum, 176 F.3d 342, 34951 (6th Cir. 1999); see also Case v. Eslinger, 555 F.3d
1317, 1330 (11th Cir. 2009) (government’s continued
retention of seized property did not violate the
Fourth Amendment because the officer “had probable
cause to seize [the plaintiff’s] property”); United
States v. Jakobetz, 955 F.2d 786, 802 (2d Cir. 1992)
(government’s continued retention of seized property
implicates “a statutory right under New York law,”
not the Fourth Amendment).
Here, the City Officers obtained a warrant that
authorized them “[t]o seize all monies . . . or things of
value furnished or intended to be furnished by any
person in connection to illegal gambling or money
laundering that may be found on the premises.”
Accordingly, the warrant permitted the City Officers
to seize the money and rare coins that Appellants
argue the City Officers stole from them. Under the
reasoning of the Supreme Court and several circuits
cited
above,
therefore,
Appellants’
Fourth
Amendment claim appears to fail. Because the City
Officers’ initial seizure of Appellants’ property was
lawful, and because a Fourth Amendment seizure is
complete after the government has taken possession
of the property, Appellants would not be able to state
a Fourth Amendment claim against the City Officers
for their theft of the property after its lawful seizure.
As the opinion notes, Mom’s Inc. v. Willman is the
only decision to have held that the theft of property
seized pursuant to a warrant violates the Fourth
Amendment. 109 F. App’x 629 (4th Cir. 2004). There,

13a
the Fourth Circuit relied on United States v. Place,
462 U.S. 696, 706 (1983) for the proposition that
“[t]he Fourth Amendment regulates all []
interference” with a person’s property interests, “not
merely the initial acquisition of possession.” Id. at
637.
In Place, the Court held that an officer’s reasonable
suspicion that property may be involved in a crime
permits the officer “to detain the luggage briefly . . .
provided that the investigative detention is properly
limited in scope.” Place, 462 U.S. at 706. After that
brief amount of time has passed, however, probable
cause is required to justify an officer’s continued
seizure of the property. Id. at 709-10. Place thus
addresses when an investigatory seizure of property
might be reasonable when based on a level of
suspicion less than probable cause. The case is
instructive for how far officers can go in searching or
seizing property without probable cause. But Place is
inapposite in a case such as this in which officers
have established probable cause and obtained a
warrant for the property that is seized. Place,
therefore, does not support the weight that Mom’s
put on it.
Although the question appears to have an obvious
answer at first blush, it is not clear whether the theft
of property seized pursuant to the warrant violates
the Fourth Amendment. The Supreme Court was
mindful of cases such as this when it admonished
courts not to resolve “difficult and novel questions of
constitutional . . . interpretation that will ‘have no
effect on the outcome of the case.’” Ashcroft v. alKidd, 563 U.S. 731, 735 (2011) (quoting Pearson v.
Callahan, 555 U.S. 223, 236-37 (2009)). We need not

14a
attempt to reconcile the conflicting case law. As the
panel opinion acknowledges, the lack of clearly
established law at the time of the incident compels
the conclusion that the City Officers are entitled to
qualified immunity.

15a
APPENDIX B
_________
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______
No. 17-16756
_______
MICAH JESSOP; BRITTAN ASHJIAN,
Plaintiffs-Appellants,
v.
CITY OF FRESNO; DERIK KUMAGAI; CURT CHASTAIN;
TOMAS CANTU
Defendants-Appellees.
_______
D.C. No. 1:15-cv-00316-DAD-SAB
_________
OPINION
_______
Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Argued and Submitted December 18, 2018
San Francisco, California
Filed March 20, 2019

16a
Before: MILAN D. SMITH, JR., JACQUELINE H.
NGUYEN, Circuit Judges,
and JANE A. RESTANI,* Judge.
Opinion by Judge Milan D. Smith, Jr.
_______
OPINION
M. SMITH, Circuit Judge:
Micah Jessop and Brittan Ashjian (Appellants)
appeal an order granting a motion for summary
judgment on the defense of qualified immunity filed
by the City of Fresno and City of Fresno police
officers Derik Kumagai, Curt Chastain, and Tomas
Cantu (City Officers) in an action alleging that the
City Officers violated the Fourth and Fourteenth
Amendments when they stole Appellants’ property
after conducting a search and seizure pursuant to a
warrant.
We need not—and do not—decide whether the City
Officers violated the Constitution. At the time of the
incident, there was no clearly established law
holding that officers violate the Fourth or Fourteenth
Amendment when they steal property that is seized
pursuant to a warrant. For that reason, the City
Officers are entitled to qualified immunity.
FACTUAL AND PROCEDURAL
BACKGROUND
As part of an investigation into illegal gambling
machines in the Fresno, California area, the City
*

The Honorable Jane A. Restani, Judge for the United States
Court of International Trade, sitting by designation.

17a
Officers executed a search warrant at three of
Appellants’ properties in Fresno. The warrant,
signed by Fresno County Superior Court Judge Dale
Ikeda, authorized the
seiz[ure]
[of]
all
monies,
negotiable
instruments, securities, or things of value
furnished or intended to be furnished by any
person in connection to illegal gambling or
money laundering that may be found on the
premises . . . [and] [m]onies and records of said
monies derived from the sale and or control of
said machines.
If the City Officers found the property listed, they
were “to retain it in [their] custody, subject to the
order of the court as provided by law.”
Following the search, the City Officers gave
Appellants an inventory sheet stating that they
seized approximately $50,000 from the properties.
Appellants allege, however, that the officers actually
seized $151,380 in cash and another $125,000 in rare
coins. Appellants claim that the City Officers stole
the difference between the amount listed on the
inventory sheet and the amount that was actually
seized from the properties.
Appellants brought suit in the Eastern District of
California alleging, among other things, claims
against the City Officers pursuant to 42 U.S.C.
§ 1983 for Fourth and Fourteenth Amendment
violations. The City Officers moved for summary
judgment on the basis of qualified immunity. The
district court granted the motion and dismissed all of
Appellants’ claims.

18a
JURISDICTION AND
STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review summary judgment determinations, and
officers’ entitlement to qualified immunity, de novo.
Glenn v. Washington County, 673 F.3d 864, 870 (9th
Cir. 2011).
ANALYSIS
“The doctrine of qualified immunity protects
government officials ‘from liability for civil damages
insofar as their conduct does not violate clearly
established statutory or constitutional rights of
which a reasonable person would have known.’”
Pearson v. Callahan, 555 U.S. 223, 231 (2009)
(quoting Harlow v. Fitzgerald, 457 U.S. 800, 818
(1982)). “In determining whether an officer is
entitled to qualified immunity, we consider (1)
whether there has been a violation of a constitutional
right; and (2) whether that right was clearly
established at the time of the officer’s alleged
misconduct.” Lal v. California, 746 F.3d 1112, 1116
(9th Cir. 2014).
I. Fourth Amendment
The parties dispute whether the City Officers’
actions violated the Fourth Amendment. The City
Officers insist that because they seized Appellants’
assets pursuant to a valid warrant, there was no
Fourth Amendment violation. Appellants, on the
other hand, argue that the City Officers’ alleged theft
was an unreasonable seizure that violated the
Fourth Amendment.
We need not address the merits of the Fourth
Amendment claim. Although courts were formerly

19a
required to determine whether plaintiffs had been
deprived of a constitutional right before proceeding
to consider whether that right was clearly
established when the alleged violation occurred, see
Saucier v. Katz, 533 U.S. 194, 201 (2001), that
requirement has been eliminated. The Supreme
Court has instructed that courts have the discretion
to determine which prong of qualified immunity
should be analyzed first. Pearson, 555 U.S. at 236.
Indeed, the Court has urged us to “think carefully
before expending ‘scarce judicial resources’ to resolve
difficult and novel questions of constitutional or
statutory interpretation that will ‘have no effect on
the outcome of the case.’” Ashcroft v. al-Kidd, 563
U.S. 731, 735 (2011) (quoting Pearson, 555 U.S. at
236-37). Addressing the second prong before the first
is especially appropriate, therefore, where “a court
will rather quickly and easily decide that there was
no violation of clearly established law.” Pearson, 555
U.S. at 239. This is one of those cases.
To determine whether a defendant violated an
individual’s clearly established rights, we must
determine “‘whether the state of the law’ at the time
of an incident provided ‘fair warning’” to the
defendant that his or her conduct was
unconstitutional. Tolan v. Cotton, 572 U.S. 650, 656
(2014) (quoting Hope v. Pelzer, 536 U.S. 730, 741
(2002)). “We do not require a case directly on point,
but existing precedent must have placed the
statutory or constitutional question beyond debate.”
al-Kidd, 563 U.S. at 741. Thus, “[t]he contours of the
right must be sufficiently clear that a reasonable
official would understand that what he is doing
violates that right.” Anderson v. Creighton, 483 U.S.

20a
635, 640 (1987). “[W]e may look at unpublished
decisions and the law of other circuits, in addition to
Ninth Circuit precedent.” Prison Legal News v.
Lehman, 397 F.3d 692, 702 (9th Cir. 2005).
We have never before addressed whether the theft
of property covered by the terms of a search warrant
and seized pursuant to that warrant violates the
Fourth Amendment. At the time of the incident, the
five circuits that had addressed that question, or the
similar question of whether the government’s refusal
to return lawfully seized property violates the Fourth
Amendment, had reached different results. Compare
Case v. Eslinger, 555 F.3d 1317, 1330 (11th Cir.
2009), Lee v. City of Chicago, 330 F.3d 456, 46066
(7th Cir. 2003), Fox v. Van Oosterum, 176 F.3d 342,
34951 (6th Cir. 1999), and United States v. Jakobetz,
955 F.2d 786, 802 (2d Cir. 1992), with Mom’s Inc. v.
Willman, 109 F. App’x 629, 636-37 (4th Cir. 2004).
The Second, Sixth, Seventh, and Eleventh Circuits
have held that the government’s failure to return
property seized pursuant to a warrant does not
violate the Fourth Amendment. Some of these courts
have reasoned that because “the word ‘seizure’ [has
been] defined as a temporally limited act,” the
Fourth Amendment provides protection only against
the initial taking of property, not its continued
retention. Lee, 330 F.3d at 462; accord Fox, 176 F.3d
at 351 (“[T]he Fourth Amendment protects an
individual’s interest in retaining possession of
property but not the interest in regaining possession
of property.”). Others have said that the failure to
return seized property to its owner does not
implicate the underlying rationales of the Fourth
Amendment. Jakobetz, 955 F.2d at 802.

21a
The Fourth Circuit, on the other hand, has held
that federal agents violate the Fourth Amendment
when they steal property that is seized during the
execution of a search warrant. Mom’s Inc., 109 F.
App’x at 637. The court relied on the Supreme
Court’s decision in United States v. Place, 462 U.S.
696, 706 (1983), and reasoned that the Fourth
Amendment “regulates all [] interference” with an
individual’s possessory interests in property, “not
merely the initial acquisition of possession.” Id.
Thus, because the agents’ theft of the plaintiff’s
watch interfered with the plaintiff’s interest in it,
“such theft violates the Fourth Amendment.” Id.
The absence of “any cases of controlling authority”
or a “consensus of cases of persuasive authority” on
the constitutional question compels the conclusion
that the law was not clearly established at the time
of the incident. Wilson v. Layne, 526 U.S. 603, 617
(1999). Although the City Officers ought to have
recognized that the alleged theft of Appellants’
money and rare coins would be improper, they did
not have clear notice that it violated the Fourth
Amendment.
Nor is this “one of those rare cases in which the
constitutional right at issue is defined by a standard
that is so ‘obvious’ that we must conclude . . . that
qualified immunity is inapplicable, even without a
case directly on point.” A.D. v. Cal. Highway Patrol,
712 F.3d 446, 455 (9th Cir. 2013). The allegation of
any theft by police officers—most certainly the theft
of over $225,000—is undoubtedly deeply disturbing.
Whether that conduct violates the Fourth
Amendment’s prohibition on unreasonable searches
and seizures, however, is not obvious. The split in

22a
authority on the issue leads us to conclude so. See
Wilson, 526 U.S. at 618 (where “judges [] disagree on
a constitutional question, it is unfair to subject police
to money damages for picking the losing side of the
controversy”).
In the absence of binding authority or a consensus
of persuasive authority on the issue, Appellants have
failed to demonstrate that it was clearly established
that the City Officers’ alleged conduct violated the
Fourth Amendment. Accordingly, we hold that the
City Officers are protected by qualified immunity
against Appellants’ Fourth Amendment claim.
II. Fourteenth Amendment
Appellants’ Fourteenth Amendment claim suffers
the same fate. Appellants argue that the City
Officers’ theft of their property violated their
substantive due process rights under the Fourteenth
Amendment. Assuming that to be true, however, the
City Officers are entitled to qualified immunity
because that right was not clearly established. We
have not held that officers violate the substantive
due process clause of the Fourteenth Amendment
when they steal property that is seized pursuant to a
warrant. The Seventh Circuit is the only circuit that
has addressed the related question of whether the
government’s refusal to return lawfully seized
property to its owner violates the Fourteenth
Amendment; it held that the substantive due process
clause does not provide relief against such conduct.
See Lee, 330 F.3d at 466-68. Because the City
Officers could not have known that their actions
violated the Fourteenth Amendment’s substantive
due process clause, they are entitled to qualified

23a
immunity
against
Amendment claim.

Appellants’

Fourteenth

CONCLUSION
We sympathize with Appellants. They allege the
theft of their personal property by police officers
sworn to uphold the law. Appellants may very well
have other means through which they may seek
relief. 1 But not all conduct that is improper or
morally wrong violates the Constitution. Because
Appellants did not have a clearly established Fourth
or Fourteenth Amendment right to be free from the
theft of property seized pursuant to a warrant, the
City Officers are entitled to qualified immunity.
AFFIRMED.

1

Indeed, the district court noted in its Order Granting
Defendants’ Motion for Summary Judgment that Appellants
“had access to an adequate post-deprivation remedy under
California tort law.”

24a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
_______
No. 15-cv-00316-DAD-SAB
_______
MICAH JESSOP, ET. AL.,
Plaintiff,
v.
CITY OF FRESNO, ET. AL.,
Defendants.
_______
ORDER GRANTING DEFENDANTS’ MOTION
FOR SUMMARY JUDGEMENT
_______
(Doc. No. 51.)
_______
This action came before the court on January 19,
2017, for hearing of defendants’ motion for summary
judgment. (Doc. No. 51.) Attorney Kevin Little
appeared telephonically on behalf of plaintiffs Micah
Jessop and Brittan Ashjian. Attorney Peter Ferguson
appeared telephonically on behalf of defendants the
City of Fresno, Curt Chastain, and Tomas Cantu.
Attorney Kevin Osterberg appeared telephonically on
behalf of defendant Derik Kumagai. Oral argument
was heard and the motion was taken under
submission. For the reasons stated below,

25a
defendants’ motion for summary judgment will be
granted.
FACTUAL BACKGROUND
On February 26, 2015, plaintiffs Micah Jessop and
Brittan Ashjian commenced this action by filing their
complaint, naming as defendants the City of Fresno
and City of Fresno police officers Curt Chastain,
Derik Kumagai, Tomas Cantu, Ken Dodd, Bob
Reynolds, Paul Zarausa, Anette Arellanes, David
Garza, Curtis Bunch, Robert Fry, and Does 1–10.
(Doc. No. 1.) On December 8, 2016, pursuant to
stipulation, the court dismissed City of Fresno Police
Officers Ken Dodd, David Garza, Bob Reynolds, Paul
Zarausa, Annette Arellanes, Curtis Bunch, and
Robert Fry, as defendants from this action. (Doc.
Nos. 49–50.) Accordingly, the action now proceeds
only against defendant police officers Derik
Kumagai, Tomas Cantu, and Curt Chastain
(“defendant Officers”), and defendant City of Fresno.
(Id.)
Plaintiffs assert four claims under 42 U.S.C. § 1983
based on alleged constitutional violations by
defendants. (Doc. No. 1 at 7, ¶ 23.) As to the
defendant Officers, plaintiffs allege: (i) a Fourth
Amendment claim for illegal seizure of property; (ii)
a Fourteenth Amendment procedural due process
claim; and (iii) a Fourteenth Amendment substantive
due process claim. (Id. at 8–11.) As to the defendant
City of Fresno, plaintiffs allege municipal liability
based on unconstitutional customs and policies. (Id.
at 11–14.) Plaintiffs seek the award of compensatory
damages, punitive damages, and attorneys’ fees and
costs. (Id. at 14.)

26a
The following facts are undisputed by the parties
on summary judgment. Plaintiffs owned and
operated Automated Teller Machines (“ATMs”) and
illegal “Coin Pusher” gambling machines in the
Central Valley of California, and kept large sums of
cash in their business and homes to restock their
machines. (Doc. No. 58 at 4, 17, ¶¶ 6, 56.) The
defendant Officers were employed by defendant City
of Fresno and at all relevant times were assigned to
the Fresno Police Department Vice Unit. (Id. at 2–5,
¶¶ 1, 4, 9.) During the relevant time, defendant
Chastain served as a supervising sergeant with the
Vice Unit. (Id.)
In February of 2013, defendant Officer Kumagai
became aware of a possible “Coin Pusher” machine
located in a Fresno liquor store, and opened an
investigation into suspected illegal gambling. (Id. at
2–3, ¶¶ 3–4.) Defendant Officer Kumagai acted
under the supervision of defendant Sergeant
Chastain and with the assistance of other Vice Unit
members, including defendant Officer Cantu. (Id.)
On September 9, 2013, defendant Officer Kumagai
obtained a search warrant signed by a Fresno
Superior Court Judge authorizing the search of
plaintiffs’ residences and business. (Id. at 4, ¶ 8.) The
following day, the defendant Officers served and
executed the search warrant on three locations as
authorized by that warrant. (Id. at 5, ¶ 10.) The
defendant Officers seized evidence during the
execution of the search warrant and created an
Evidence and Receipt List recording the various

27a
items seized by the executing officers.1 (Id. at 6–8,
¶¶ 12–16.)
A few days after the execution of the search
warrant, plaintiffs and their retained counsel met
with defendant Officer Kumagai and a Fresno
Deputy City Attorney to view the currency and other
evidence seized pursuant to the warrant. (Id. at 10,
¶ 20.)2 As noted, this civil rights action was filed by
plaintiffs on February 26, 2015.
On December 16, 2016, defendants jointly filed the
instant motion for summary judgment (Doc. No. 51.)
Plaintiffs filed their opposition on January 3, 2017.
(Doc. No. 57.) On January 10, 2017, defendants filed
their reply. (Doc. No. 59.) Defendants also filed
objections to evidence offered by plaintiffs in support
of their opposition. (Doc. No. 60.)
LEGAL STANDARD
Summary judgment is appropriate when the
moving party “shows that there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).

1

The parties dispute the amount of currency that was
actually seized during the execution of the warrant, whether
collectible coins were also seized; and whether the Evidence and
Receipt List identified all of the evidence taken by law
enforcement officers during the execution of the search
warrant. (Doc. No. 58 at 6–8, ¶¶ 12–16.)
2

The parties also dispute whether plaintiffs voiced objections
at this meeting regarding the alleged discrepancies between the
amount of money seized during the execution of the search
warrant on September 10, 2013 and the amount held thereafter
at the City Attorney’s office and made available for viewing by
plaintiffs and their attorneys. (Doc. No. 58 at 10, 22, ¶¶ 20, 72.)

28a
On a motion for summary judgment, the moving
party “initially bears the burden of proving the
absence of a genuine issue of material fact.” In re
Oracle Corp. Securities Litigation, 627 F.3d 376, 387
(9th Cir. 2010) (citing Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986)). The moving party may meet its
burden by “citing to particular parts of materials in
the record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those made for
purposes of the motion only), admissions,
interrogatory answers, or other materials” or by
showing that such materials “do not establish the
absence or presence of a genuine dispute, or that the
adverse party cannot produce admissible evidence to
support the fact.” Fed. R. Civ. P. 56(c)(1)(A), (B).
When the non-moving party bears the burden of
proof at trial, “the moving party need only prove that
there is an absence of evidence to support the
nonmoving party’s case.” Oracle Corp., 627 F.3d at
387 (citing Celotex, 477 U.S. at 325.) See also Fed. R.
Civ. P. 56(c)(1)(B). Indeed, summary judgment
should be entered, after adequate time for discovery
and upon motion against a party who fails to make a
showing sufficient to establish the existence of an
element essential to that party’s case, and on which
that party will bear the burden of proof at trial. See
Celotex, 477 U.S. at 322. “[A] complete failure of
proof concerning an essential element of the
nonmoving party’s case necessarily renders all other
facts immaterial.” Id. In such a circumstance,
summary judgment should be granted, “so long as
whatever is before the district court demonstrates

29a
that the standard for entry of summary judgment,
. . . , is satisfied.” Id. at 323
If the moving party meets its burden, the burden
then shifts to the opposing party to demonstrate the
existence of a genuine issue of material fact. See
Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986). In attempting to establish
the existence of this factual dispute, the opposing
party may not rely upon the allegations or denials of
its pleadings but is required to tender evidence of
specific facts in the form of affidavits, and/or
admissible discovery material, in support of its
contention that the dispute exists. See Fed. R. Civ. P.
56(c)(1); Matsushita, 475 U.S. at 586 n.11. The
opposing party must demonstrate that the fact in
contention is material, i.e., a fact that might affect
the outcome of the suit under the governing law, see
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986); T.W. Elec. Serv., Inc. v. Pacific Elec.
Contractors Ass’n, 809 F.2d 626, 630 (9th Cir. 1987),
and that the dispute is genuine, i.e., the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party, see Wool v. Tandem
Computers, Inc., 818 F.2d 1433, 1436 (9th Cir. 1987).
In the endeavor to establish the existence of a
factual dispute, the opposing party need not
establish a material issue of fact conclusively in its
favor. It is sufficient that “the claimed factual
dispute be shown to require a jury or judge to resolve
the parties’ differing versions of the truth at trial.”
T.W. Elec. Serv., 809 F.2d at 631. Thus, the “purpose
of summary judgment is to ‘pierce the pleadings and
to assess the proof in order to see whether there is a

30a
genuine need for trial.’” Matsushita, 475 U.S. at 587
(citations omitted).
When evaluating the evidence to determine
whether there is a genuine issue of fact, the court
draws “all reasonable inferences supported by the
evidence in favor of the non-moving party.” Walls v.
Central Costa Cty. Transit Auth., 653 F.3d 963, 966
(9th Cir. 2011). It is the opposing party’s obligation
to produce a factual predicate from which the
inference may be drawn. See Richards v. Nielsen
Freight Lines, 602 F. Supp. 1224, 1244–45 (E.D. Cal.
1985), aff’d, 810 F.2d 898, 902 (9th Cir. 1987).
Finally, to demonstrate a genuine issue, the opposing
party “must do more than simply show that there is
some metaphysical doubt as to the material facts.”
Matsushita, 475 U.S. at 587. Where the record taken
as a whole could not lead a rational trier of fact to
find for the nonmoving party, there is no ‘genuine
issue for trial.’” Id.
ANALYSIS
The Civil Rights Act under which this action was
filed provides as follows:
Every person who, under color of [state law]
. . . subjects, or causes to be subjected, any
citizen of the United States . . . to the
deprivation of any rights, privileges, or
immunities secured by the Constitution . . .
shall be liable to the party injured in an action
at law, suit in equity, or other proper
proceeding for redress.
42 U.S.C. § 1983. Thus, to make out a valid claim
under § 1983, a plaintiff must allege and eventually
prove that: (i) the conduct complained of was

31a
committed by a person acting under color of state
law; (ii) the conduct deprived a person of
constitutional rights; and (iii) there is an actual
connection or link between the actions of the
defendants and the deprivation allegedly suffered by
plaintiff. See Parratt v. Taylor, 451 U.S. 527, 535
(1981); Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
690–695 (1978); Rizzo v. Goode, 423 U.S. 362, 370–
371 (1976). “A person ‘subjects’ another to the
deprivation of a constitutional right, within the
meaning of § 1983, if he does an affirmative act,
participates in another’s affirmative acts or omits to
perform an act which he is legally required to do that
causes the deprivation of which complaint is made.”
Johnson v. Duffy, 588 F.2d 740, 743 (9th Cir. 1978).
Supervisory personnel are generally not liable
under § 1983 for the actions of their employees under
a theory of respondeat superior and, therefore, when
a named defendant holds a supervisorial position,
the causal link between him and the claimed
constitutional violation must be specifically alleged.
See Fayle v. Stapley, 607 F.2d 858, 862 (9th Cir.
1979); Mosher v. Saalfeld, 589 F.2d 438, 441 (9th Cir.
1978). Vague and conclusory allegations concerning
the involvement of official personnel in civil rights
violations are not sufficient. See Ivey v. Bd. of
Regents, 673 F.2d 266, 268 (9th Cir. 1982).
In the pending motion, defendants argue they are
entitled to summary judgment on all of plaintiffs’
claims under § 1983. The court will analyze each of
defendants’ arguments in turn below.

32a
A. Section 1983 Claim for Fourth Amendment
Violations
Defendants argue that they are entitled to
summary judgment on plaintiffs’ § 1983 Fourth
Amendment claims against the defendant Officers
based on qualified immunity grounds.
“The doctrine of qualified immunity shields officials
from civil liability so long as their conduct ‘does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have
known.’” Mullenix v. Luna, ___U.S.___, ___, 136 S.
Ct. 305, 308 (2015) (quoting Pearson v. Callahan,
555 U.S. 223, 231 (2009) (in turn quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)); see also Bruce
v. Ylst, 351 F.3d 1283, 1290 (9th Cir. 2003); Jeffers v.
Gomez, 267 F.3d 895, 910 (9th Cir. 2001). When
determining whether qualified immunity applies, the
central questions for the court are: (i) whether the
facts alleged, taken in the light most favorable to the
plaintiff, demonstrate that the defendants’ conduct
violated a statutory or constitutional right; and (ii)
whether the right at issue was “clearly established.”
Saucier v. Katz, 533 U.S. 194, 201 (2001); see also
Pearson, 555 U.S. at 236 (holding that this two-part
analysis is “often beneficial” but not mandatory).
“A government official’s conduct violate[s] clearly
established law when, at the time of the challenged
conduct, ‘[t]he contours of [a] right [are] sufficiently
clear’ that every ‘reasonable official would have
understood that what he is doing violates that
right.’” Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)); see also Mullenix, 136 S. Ct. at 308. In this
regard, “existing precedent must have placed the

33a
statutory or constitutional question beyond debate.”
Mullenix, 136 S. Ct. at 308-09 (quoting al-Kidd, 563
U.S. at 741); see also Clement v. Gomez, 298 F.3d
898, 906 (9th Cir. 2002) (“The proper inquiry focuses
on . . . whether the state of the law [at the relevant
time] gave ‘fair warning’ to the officials that their
conduct was unconstitutional”) (quoting Saucier, 533
U.S. at 202). “The dispositive question is ‘whether
the violative nature of particular conduct is clearly
established.’” Mullenix, 136 S. Ct. at 308 (quoting alKidd, 563 U.S. at 742). This inquiry must be
undertaken in light of the specific context of the
particular case rather than as a broad, general
proposition. Id.; see also Brosseau v. Haugen, 543
U.S. 194, 198 (2004); Saucier, 533 U.S. at 201.
When law enforcement officers raise a qualified
immunity defense, the plaintiffs bear the burden of
proving the existence of a “clearly established” right
at the time of the allegedly unlawful conduct.
Tarabochia v. Adkins, 766 F.3d 1115, 1125 (9th Cir.
2014); see also Maraziti v. First Interstate Bank, 953
F.2d 520, 523 (9th Cir. 1992). If this burden is met by
plaintiffs, then defendants bear the burden of
establishing that their actions were reasonable, even
if they might have violated the plaintiffs’ federallyprotected rights. See Doe v. Petaluma City Sch. Dist.,
54 F.3d 1447, 1450 (9th Cir. 1995); Romero v. Kitsap
County, 931 F.2d 624, 627 (9th Cir. 1991).
“[R]egardless of whether the constitutional violation
occurred, the [defendants] should prevail if the right
asserted by the plaintiff[s] was not ‘clearly
established’ or the [defendants] could have
reasonably believed that [their] particular conduct
was lawful.” Romero, 931 F.2d at 627; see also Moran

34a
v. State of Washington, 147 F.3d 839, 844 (9th Cir.
1998).
Here, defendants argue that qualified immunity
precludes plaintiffs’ § 1983 claims premised on
alleged violations of the Fourth Amendment. (Doc.
No. 51-1 at 20–23.)
The Fourth Amendment provides that “[t]he right
of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches
and seizures, shall not be violated,” and that “no
Warrants shall issue, but upon probable cause.” U.S.
Const. amend. IV. Under the Fourth Amendment, a
seizure occurs if “there is some meaningful
interference with an individual’s possessory interests
in [his or her] property,” even when privacy rights
are not implicated. Soldal v. Cook County, 506 U.S.
56, 61 (1992) (internal citation and quotation
omitted); see also Lavan v. City of Los Angeles, 693
F.3d 1022, 1028 (9th Cir. 2012), cert denied
___U.S.___, 133 S. Ct. 2855 (2013). The government’s
interference with an individual’s possessory interests
in their property must be reasonable, and “it is a
cardinal principle that ‘searches conducted outside
the judicial process, without prior approval by judge
or magistrate, are per se unreasonable under the
Fourth Amendment.’” Horton v. California, 496 U.S.
128, 134 (1990) (citing Katz v. United States, 389
U.S. 347, 357 (1967)); see also United States v.
Payton, 573 F.3d 859, 864 (9th Cir. 2009) (a search
without explicit authorization which exceeds the
scope of the warrant does not meet the Fourth
Amendment standard of reasonableness); Miale v.
Tuolumne Cty. Sheriff’s Dep’t, No. 1:06–cv–01483–

35a
AWI–YNP PC, 2009 WL 3073922, at *5 (E.D. Cal.
Sept. 22, 2009).
In their motion for summary judgment, defendants
argue that plaintiffs’ § 1983 claims based upon
alleged Fourth Amendment violations are barred by
qualified immunity because the September 10, 2013
search of plaintiffs’ residence was executed pursuant
to a valid warrant and did not violate plaintiffs’
Fourth Amendment rights. (Doc. No. 51-1 at 14–15.)
In support of this argument, defendants have come
forward with the following evidence on summary
judgment: (i) the declaration of defendant Kumagai,
in which he states that he sought and obtained a
search warrant from a Fresno County Superior Court
Judge before conducting the September 10, 2013
search, (Doc. No. 52 at 2–3, ¶¶ 4–6, 8); (ii) defendant
Kumagai’s deposition testimony in which he
explained that plaintiff Jessop admitted during the
search to owning and operating illegal gambling
machines with plaintiff Ahijan, (Doc. No. 53-1 at 19–
20); (iii) the search warrant identifying the locations
and the items to be seized that the defendant
Officers relied upon in conducting the search, as well
as affidavit in support of the search warrant
establishing probable cause for its issuance, (Doc.
No. 52-1 at 2–24); and (iv) the property sheets/search
warrant evidence and receipt list created by Fresno
police officers during the execution of the search
warrant that lists each item of property seized, the
seizing officer, and the location from which the item
was seized, (Doc. Nos. 52-3 at 2–3; 52-4 at 2–3; 52-5
at 2–4).
Plaintiffs argue that qualified immunity does not
bar their § 1983 claims based on the Fourth

36a
Amendment violations they allege in their complaint,
because disputed issues of material fact remain as to
whether the defendant Officers, in fact, exceeded the
scope of the warrant during their execution of the
search warrant in violation of plaintiffs’ rights under
the Fourth Amendment. (Doc. No. 57 at 11–13.) In
opposing summary judgment on this ground,
plaintiffs rely on two forms of evidence: (i) the
deposition testimony of plaintiff Micah Jessop in
which he testified that $131,380 in currency and
collectible coins was seized by police officers from
plaintiffs on September 10, 2013, rather than the
$50,000 amount reported by defendants on the
property sheets/search warrant evidence and receipt
list, (Doc. No. 55 at 196); and (ii) the declaration of
Kristine Jessop, the wife of plaintiff Micah Jessop,
who states that there were collectible coins in the
bedroom of her residence prior to the defendant
Officers’ execution of the search warrant that were
missing after the officers’ departure from the
residence, (Doc. No. 57 at 30–31, ¶ 6).
To the extent plaintiffs contend that the defendant
Officers exceeded the scope of the warrant in
executing the search thereby violating plaintiffs’
rights under the Fourth Amendment, the court finds
that argument to be unsupported by the evidence
and unpersuasive. It is undisputed by the parties on
summary judgment that the search warrant in
question was issued by the reviewing state court
judge based upon the judicial determination that the
supporting affidavit established probable cause to
believe plaintiffs were operating a business involving
illegal gambling machines, and that evidence,
specified in the warrant, of that crime would be

37a
found in the places authorized to be searched. That
search warrant was valid on its face.
Moreover, the undisputed evidence before the court
on summary judgment establishes that the property
seized by the defendant Officers was within the scope
of the property described in the warrant as
authorized for seizure. In this regard, the search
warrant authorized the executing officers “[t]o seize
all monies, negotiable instruments, securities, or
things of value furnished or intended to be furnished
by any person in connection to illegal gambling or
money laundering that may be found on the
premises, said items being subject to seizure and
forfeiture,” as well as “monies . . . derived from the
sale and or control of said [gambling] machines.”
(Doc. No. 52-1 a 5-6.) In their complaint, plaintiffs
allege that defendant Officers seized approximately a
total of $131,380 from plaintiffs’ business location,
and another $20,000 in currency as well as rare coins
valued at $125,000 from plaintiffs’ residences. (Doc.
No. 1 at 7, ¶ 24.) Simply put, on its face the warrant
authorized the seizure of these “Monies, negotiable
instruments . . . or things of value.”3 (Doc. No. 52-1 at
3

The affidavit and statement of probable cause supporting
the warrant explained to the issuing judge that based upon the
affiant’s training and experience, he knew that persons engaged
in these illegal activities possess, among other things, “U.S.
currency and/or a ‘Thing of Value,’ as defined as any monies,
coin, currency, check, chip, allowance, token, credit,
merchandise, property or any representation of value used or
intended to be used for the purpose of operating, demonstrating
and/or sales of said [illegal gambling] machine” and that
“money that is derived from the illegal devices is possibly being
commingled with proceeds earned from the ATM business.”
(Doc. No. 52-1 at 13.)

38a
5) (emphasis added). Based upon this probable cause
showing, the search warrant thus authorized seizure
of all money and valuables found at the locations to
be searched. Cf. San Jose Charter of Hells Angels
Motorcycle Club v. City of San Jose, 402 F.3d 962,
973 (9th Cir. 2005) (distinguishing between search
warrants authorizing the seizure of “any” items and
those authorizing seizure of “all” items, emphasizing
the latter to be broad in scope). The defendant
Officers were entitled to rely on this language when
searching plaintiffs’ business and residences and
determining what was to be seized pursuant to the
warrant. See United States v. Marques, 600 F.2d 742,
751 (9th Cir. 1979); United States v. Western
Titanium, Inc., No. 08–CR–4229–JLS, 2010 WL
3768174, at *1 (S.D. Cal. Sept. 22, 2010).
In their opposition to the pending motion for
summary judgment, plaintiffs state in conclusory
fashion that, “[u]nquestionably, the theft of over
$100,000 and collectible coins/currency exceeded the
legitimate scope of the search warrant.” (Doc. No. 57
at 11.) However, plaintiffs offer no evidence in
support of this conclusory contention. Cf. City of San
Jose, 402 F.3d at 974 (observing that behavior
“beyond that necessary to execute [a warrant]
effectively” violates the Fourth Amendment)
(internal citation omitted). Accordingly, even
assuming the truth of plaintiffs’ allegations, the
court finds that there is no genuine disputed issue of
material fact as to whether defendant Officers
exceeded the scope of the warrant during the search.
Based upon the undisputed facts defendants are
entitled to judgment in their favor as to this aspect of
plaintiffs’ claim.

39a
To the extent that plaintiffs allege defendant
Officers engaged in the subsequent theft of property
that had lawfully been seized pursuant to the
warrant, the court concludes that such conduct does
not violate any Fourth Amendment right that was
clearly established at the time in question. Plaintiffs
allege in their complaint and in their opposition to
the pending motion that one or more of defendant
Officers stole property that had been seized during
the September 10, 2013 search. The Ninth Circuit,
however, has offered no direct guidance as to
whether the Fourth Amendment protects against the
subsequent theft of lawfully seized items, and the
circuit courts that have addressed this issue appear
to be divided. See United States v. Tamura, 694 F.2d
591, 597 (9th Cir. 1982) (not directly analyzing this
issue but finding that evidence seized pursuant to a
warrant was properly admitted in evidence at trial,
noting that “unnecessary delay” in returning
property seized during a search pursuant to warrant
“appears to be an unreasonable and therefore
unconstitutional manner of executing the warrant”);
see also Springer v. Albin, 398 Fed. Appx. 427, 434–
35 (10th Cir. 2010) (identifying a circuit split on the
question of whether a theft by federal agents of
lawfully seized currency violated the Fourth
Amendment, and concluding that qualified immunity
precluded plaintiff’s Bivens claims based upon such
alleged conduct)4; see generally Prison Legal News v.
Lehman, 397 F.3d 692, 701–02 (9th Cir. 2005) (“In
4

“[A] Bivens action is the federal analog to suits brought
against state officials under . . . § 1983.” Hartman v. Moore, 547
U.S. 250, 254 n.2 (2006).

40a
determining whether . . . rights in this case were
clearly established, and whether a reasonable person
would have known his or her actions violated these
rights, we may look at unpublished decisions and the
law of other circuits, in addition to Ninth Circuit
precedent.”); Malik v. Brown, 71 F.3d 724, 727 (9th
Cir. 1995) (explaining that, in determining whether
an act is clearly established for qualified immunity
purposes, courts should look to binding precedent as
well as to the decisions of other circuits).5
On the one hand, some courts have determined
that a government officer’s theft of lawfully seized
property constitutes a Fourth Amendment violation.
See Mom’s Inc. v. Willman, 109 Fed. Appx. 629, 636–
37 (4th Cir. 2004) (finding that defendant federal
agents’ theft of a watch would represent a Fourth
Amendment violation); Barker v. Norman, 651 F.2d
1107, 1131 (5th Cir. 1981) (finding that a triable
issue existed as to whether defendant police officer’s
retention of property lawfully seized from plaintiff’s
apartment violated the Fourth Amendment); see also
5

Federal Criminal Procedure Rule 41(g) requires the return
of property lawfully seized under certain circumstances. See
United States v. Van Cauwenberghe, 934 F.2d 1048, 1061 (9th
Cir. 1991) (noting that a criminal defendant is presumed to
have the right to the return of his property once it is no longer
needed as evidence and that the burden of proof is on the state
to show “that it has a legitimate reason to retain the property”
that is reasonable under all of the circumstances). However, the
Ninth Circuit has also stated that analysis of a Rule 41(g)
motion for return of property is distinct from the analysis under
the Fourth Amendment. See United States v. Comprehensive
Drug Testing, Inc., 621 F.3d 1162, 1172–73 (9th Cir. 2010)
(emphasizing that Rule 41(g) and restrictions under the Fourth
Amendment “serve fundamentally different purposes”).

41a
Collins v. Guerin, No. 14–cv–00545–BAS (BLM),
2014 WL 7205669, at *6 n.2 (S.D. Cal. Dec. 17, 2014)
(denying a motion to dismiss and concluding that
plaintiff was not precluded from bringing a § 1983
Fourth Amendment claim challenging the defendant
officers’ alleged theft of jewels during the search of a
home pursuant to warrant, because the theft “is
more akin to cases involving destructive behavior
during a search”); Swales v. Township of Ravenna,
989 F. Supp. 925, 940–41 (N.D. Ohio 1997) (holding
that an initially reasonable seizure can become an
unreasonable seizure that violates the Fourth
Amendment when officers refuse to return seized
property). These courts have reasoned that the
protections of the Fourth Amendment extend beyond
“the initial acquisition of possession,” and prohibit
extension of a seizure beyond its lawful duration.
Mom’s Inc., 109 Fed. Appx. at 637; see also Guerin,
2014 WL 7205669, at *6 n.2 (emphasizing that the
Fourth Amendment limits a police officer’s conduct
from the moment of the officer’s entry into a home
until the moment of departure).
In contrast, many other circuit courts have
concluded that an officer’s retention of lawfully
seized property alone does not violate the Fourth
Amendment. See Case v. Eslinger, 55 F.3d 1317
(11th Cir. 2009) (finding that defendant police
officer’s retention of lawfully seized property did not
violate the Fourth Amendment); Lee v. City of
Chicago, 330 F.3d 456, 458–59 (7th Cir. 2003)
(finding that defendant conditioning the return of
plaintiff’s lawfully impounded car on the payment of
fees did not violate the Fourth Amendment); Fox v.
Van Oosterum, 176 F.3d 342, 344–351 (6th Cir. 1999)

42a
(finding that defendant detective’s refusal to return a
driver’s license to a licensee after a lawful seizure did
not violate the Fourth Amendment); see also Ali v.
Ramsdell, 423 F.3d 810, 811–815 (8th Cir. 2005)
(expressing “considerable doubt whether an
allegation that property appropriately seized in
executing a valid search warrant but not inventoried
and stored in the manner required by state law even
states a claim under the Fourth Amendment,” but
upholding dismissal on other grounds); Slider v. City
of Oakland, No. C 08– 4847 SI, 2010 WL 2867807, at
*4 (N.D. Cal. July 19, 2010) (finding that defendant
police officers’ alleged theft of plaintiff’s property
following a lawful search and seizure did not
represent a Fourth Amendment violation). These
courts generally reason that once the act of taking
the property is complete, the seizure has ended and
the Fourth Amendment no longer governs. See Lee,
330 F.3d at 458–59 (finding that retention of
property after a lawful search “neither continued the
initial seizure nor began another”); Fox, 176 F.3d at
344–351 (6th Cir. 1999) (finding that refusal to
return lawfully seized property “neither brought
about an additional seizure nor changed the
character of the [original] seizure from a reasonable
one to an unreasonable one”). Thus, while a
government agent’s conversion of lawfully seized
property may represent a breach of state law, such
conduct does not implicate Fourth Amendment
concerns after the time of the initial seizure.
In this regard, the court finds instructive the
decision in Slider v. City of Oakland, No. C 08-4847
SI, 2010 WL 2867807 (N.D. Cal. July 19, 2010). In
that case, the plaintiff brought a civil rights action in

43a
which he alleged that following a traffic stop, which
ultimately resulted in his conviction for possession of
a controlled substance, two police officers conducted
an inventory search of his car and stole a MacBook
Pro computer and a Sony Play Station (PSP) from his
vehicle while falsely claiming that those items were
in the vehicle when it was towed away. See 2010 WL
2867807, at *1–3. In his § 1983 complaint the
plaintiff alleged a violation of his rights under the
Fourth, Fifth and Fourteenth Amendments as well
as various state law claims. Id. at *3. In granting
summary judgment in favor of defendants as to
plaintiff’s Fourth Amendment claim, the district
court stated:
Plaintiff’s . . . claim with respect to the Fourth
Amendment is that the alleged theft of
plaintiff’s MacBook Pro and PSP constitutes
an unreasonable seizure. The Fourth
Amendment dictates that the right of a person
to be “secure in [his] person[ ], houses, papers,
and effects, against unreasonable searches and
seizures, shall not be violated, and no
warrants shall issue, but upon probable cause
. . . .” U.S. Const. amend. IV. Although the
theft of plaintiff’s MacBook Pro and PSP was
unlawful
(assuming
arguendo
it
was
committed by the defendant officers), the
initial search and seizure of his property was
not. When a person is incarcerated, his
personal possessions are routinely and
lawfully seized and placed in official custody
both to protect the detainee’s possessions and
to maintain security at the detention facility.
See Hudson v. Palmer, 468 U.S. 517, 540, 104

44a
S. Ct. 3194, 82 L.Ed.2d 393 (1984) (O’Connor,
J. concurring). The theft following the initial
search and seizure should therefore not be
viewed as a constitutional violation, but rather
as a tortious injury redressable under the
state law of conversion. See id.
Id. at *4.6
Absent binding Ninth Circuit precedent on this
issue, and in light of the conflicting decisions from
other circuits, the undersigned concludes that any
alleged theft of property which was initially lawfully
seized from plaintiffs pursuant to a valid search
warrant did not violate their then clearly established
Fourth Amendment rights. See Springer, 398 Fed.
Appx. at 434–35 (finding that, in light of conflicting
judgments from circuit courts, the law with respect
to this very issue under the Fourth Amendment was
not clearly established for purposes of qualified
immunity).7

6

“[I]f the act of taking possession and the indefinite retention
of the property are themselves reasonable, the handling of the
property while in the government’s custody is not itself of
Fourth Amendment concern. . . . The loss, theft, or destruction
of property so seized has not, to my knowledge ever been
thought to state a Fourth Amendment claim[, and] missing
property ha[s] long been redressable in tort by actions for . . .
conversion.” Hudson v. Palmer, 468 U.S. 517, 538–39 (1984)
(O’Connor, concurring).
7

It is the case that in a decision issued on June 21, 2017
reviewing a city vehicle impoundment policy, the Ninth Circuit
rejected the reasoning of the Seventh Circuit in Lee, and
implicitly the Sixth Circuit decision in Fox, holding that “[t]he
Fourth Amendment doesn’t become irrelevant once an initial
seizure has run its course” and that “[a] seizure is justified
under the Fourth Amendment only to the extent that the

45a
Accordingly, defendants are entitled to summary
judgment both on the merits and on qualified
immunity grounds with respect to plaintiffs’ Fourth
Amendment claim that the officers exceeded the
scope of the warrant in its execution. In addition,
defendants are entitled to summary judgment on
qualified immunity grounds with respect to
plaintiffs’ Fourth Amendment claim based upon the
alleged theft of their property seized pursuant to the
warrant.8

government’s justification holds force” after which “the
government must cease the seizure or secure a new
justification.” Brewster v. Beck, 859 F.3d 1194, 1197 (9th Cir.
2017). It is far from certain that the holding in Brewster is
sufficient to clearly establish that the theft by police of property
which is lawfully seized pursuant to a warrant violates the
Fourth Amendment. However, even if it was, that recent
precedent did not exist in September of 2013 and therefore
cannot serve as the basis for the qualified immunity
determination here. See Davis v. United States, 854 F.3d 594,
599–600 (9th Cir. 2017) (the constitutional right must have
been clearly established “at the time of [the] defendant’s alleged
misconduct.”) (quoting Pearson, 555 U.S. at 232).
8

Having concluded that defendant Officers did not violate
clearly established Fourth Amendment rights, the court does
not reach a determination as to whether defendants’ alleged
theft of property seized during the search in fact violated the
Fourth Amendment. See generally Saucier, 533 U.S. at 201
(stating that a central question in determining applicability of
qualified immunity is whether the constitutional right at issue
was “clearly established” at the time of the alleged violation);
see also Pearson v. Callahan, 555 U.S. 223, 236-37 (2009)
(holding that Saucier’s two-part analysis is “often beneficial”
but not mandatory and recognizing that “[t]here are cases in
which it is plain that a constitutional right is not clearly
established but far from obvious whether in fact there is such a
right. ); Sjurset v. Button, 810 F.3d 609 (9th Cir. 2015)

46a
B. Section
Claims

1983

Substantive

Due

Process

Defendants also contend they are entitled to
summary judgment with respect to plaintiffs’ § 1983
substantive due process claims against the defendant
Officers.
In relevant part, the Fourteenth Amendment
commands that “no state . . . shall deprive an person
of life, liberty, or property, without due process of
law.” U.S. Const. amend. XIV § 1. The Fourteenth
Amendment has both a procedural and a substantive
component. See County of Sacramento v. Lewis, 523
U.S. 833, 847 (1998); Brittain v. Hansen, 451 F.3d
982, 990–1000 (9th Cir. 2006). To show a violation of
substantive due process, a plaintiff must
demonstrate that a government agent acted in a
manner that “shocks the conscience,” i.e. that they
acted with a “purpose to harm.” County of
Sacramento, 523 U.S. at 847; see also Lemire v. Cal.
Dep’t of Corr. & Rehab., 726 F.3d 1062, 1075 (9th
Cir. 2013); Porter v. Osborn, 546 F.3d 1131, 1137–41
(9th Cir. 2008) (observing that courts should consider
the totality of the circumstances when determining
whether or not official conduct demonstrates a
conscience-shocking purpose to harm).
The Fourteenth Amendment right to substantive
due process protects liberties “deeply rooted in this
Nation’s history and tradition.” Moore v. East
Cleveland, 431 U.S. 494, 503 (1977). “Where a
particular amendment ‘provides an explicit textual
source of constitutional protection’ against a
(“Recognizing the “general rule of constitutional avoidance . . .
we now turn to the second prong of the Saucier test.”).

47a
particular source of government behavior, ‘that
Amendment, not the more generalized notion of
substantive due process’ must be the guide for
analyzing these claims.” Albright v. Oliver, 510 U.S.
266, 273 (1997) (quoting Graham v. Connor, 490 U.S.
386, 395 (1989)); see also Action Apartment Ass’n v.
Santa Monica Rent Control Bd., 509 F.3d 1020, 1025
(9th Cir. 2007) (explaining that preemption under
Graham occurs when a substantive due process
claim “can be vindicated under a different—and more
precise—constitutional rubric”). But see generally
Soldal, 506 U.S. at 70 (“Certain wrongs affect more
than a single right and, accordingly, can implicate
more than one of the Constitution’s commands.”).
Defendants argue that they are entitled to
summary judgment with respect to plaintiffs’ § 1983
claims substantive due process claims because the
defendant Officers carried out their search in an
objectively reasonable manner and plaintiffs have
not presented evidence of conscience-shocking
behavior on the part of defendants. (Doc. No. 51-1 at
16–17.) Defendants point to the following evidence in
this regard: (i) the search warrant signed by the
Fresno County Superior Court Judge authorizing the
September 10, 2013 search, (Doc. No. 58 at 4, ¶ 8);
and (ii) plaintiff Micah Jessop’s deposition testimony
wherein he acknowledged that the Fresno Police
Department returned ten boxes of property to him
following the search, (Doc. No. 53-1 at 109).
In opposition to defendants’ summary judgment
motion, plaintiffs argue that defendants’ alleged
actions—the theft of over $100,000 during the
September 2013 search—rise to a conscienceshocking level sufficient to meet the standard for a

48a
Fourteenth Amendment substantive due process
claim. (Doc. No. 57 at 14–16.) In this regard,
plaintiffs rely upon the same evidence offered in
support of their allegations of a Fourth Amendment
violation. (Id.)
As a preliminary matter, the court observes that
under Ninth Circuit precedent, the existence of a
post-deprivation remedy does not bar plaintiffs’
substantive due process claims. 9 See Taylor v.
Knapp, 871 F.2d 803, 806 (9th Cir. 1988)
(acknowledging that where a defendant acts in an
unauthorized and random manner in the course of
violating a constitutional right, the availability of
adequate post-deprivation remedies does not bar a
substantive due process claim under § 1983). Thus,
while plaintiffs acknowledge in their opposition that
9

The Supreme Court, in Parratt and its progeny, has found
that the existence of a post-deprivation remedy will preclude a
procedural due process claim challenging the government’s
“random and unauthorized” seizure of property. See Zinermon
v. Burch, 494 U.S. 113, 136 (1990) (explaining that a
government agent acts in a random and unauthorized manner
if (i) their conduct was unforeseeable, (ii) their conduct was
unauthorized and executed in violation of state procedure, and
(iii) pre-deprivation procedures would have been impracticable
under the circumstances). Though the Supreme Court has not
directly addressed the issue, the Ninth Circuit has found that
“[t]he Parratt rationale does not apply to a denial of substantive
due process, for in such a case the deprivation is the taking of
property or liberty itself, not the process by which the taking is
accomplished, and the availability of neither pre nor postdeprivation process is relevant.” Mann v. City of Tucson, 782
F.2d 790, 792 (9th Cir. 1985); see also Taylor, 871 F.2d a 804; cf.
Slider, 2010 WL 2867807, at *6 (acknowledging binding Ninth
Circuit precedent on the issue, but noting that “there is no clear
rule as to whether Parratt and its progeny extend to
substantive due process claims”).

49a
they had access to an adequate post-deprivation
remedy under California tort law (Doc. No. 57 at 9
n.1), this fact alone does not prevent plaintiffs from
pursuing claims under § 1983 based on violations of
their substantive due process rights.
Here, however, plaintiffs’ substantive due process
claims arise out of allegations that defendant
Officers stole property seized by them pursuant to a
facially valid warrant. (Doc. No. 1 at 8–11.) “The
unreasonable retention of seized property is the type
of government conduct for which the Fourth
Amendment provides explicit limitations.” Hansen v.
Schubert, No. CIV. S-020850 FCD GGH, 2007 WL
1029812, at *4 (E.D. Cal. April 2, 2007) (citing
United States v. Tamura, 694 F.2d 591, 597 (9th Cir.
1982)); see also McPeak v. State of Arizona, No. 2:15–
cv–0027–HRH, 2015 WL 4647906, at *9 (D. Ariz.
Aug. 5, 2015) (finding that plaintiff’s allegations of
excessive force and failure to return seized property
“must be analyzed under the Fourth Amendment”).
As such, the Fourth Amendment is the constitutional
lens through which plaintiffs’ allegations must be
analyzed. See Armendariz v. Penman, 75 F.3d 1311,
1321–22 (9th Cir. 1996) (“Graham . . . make[s] clear
that any ‘explicit source of constitutional protection’
preempts a more generalized substantive due process
claim”) (citing Graham, 490 U.S. at 395), overruled
on other grounds by Crown Point Dev., Inc. v. City of
Sun Valley, 506 F.3d 851, 856–57 (9th Cir. 2007).
Plaintiffs
cannot
maintain
an
independent
Fourteenth Amendment substantive due process
claim challenging the same government conduct
challenged in their Fourth Amendment claim. See
Schneider v. County of Sacramento, No. S–12–2457

50a
KJM KJN, 2014 WL 4187364, at *7–8 (E.D. Cal.
Aug. 21, 2014) (“For Graham to apply, the claims
would have to target the same sort of governmental
conduct”) (internal quotation omitted); see also
Slider, 2010 WL 2867807, at *7 (finding that
defendants were entitled to summary judgment on
plaintiff’s substantive due process claim based on
allegations that the defendant police officers stole
lawfully seized property, because the Fourth
Amendment provided an explicit textual source of
constitutional protection against such conduct);
Tovar v. City of Fresno, No. CV F 06-0351 LJO TAG,
2007 WL 2253605, at *11 (E.D. Cal. Aug. 3, 2007)
(granting defendants summary judgment on
plaintiff’s substantive due process claim because “an
alleged failure to observe the requirements of the
Fourth Amendment will not support an independent
claim for a failure of due process,” despite finding no
triable issue of material fact as to plaintiff’s Fourth
Amendment claims); Hansen, 2007 WL 1029812, at
*4 (same).
Accordingly, defendants’ motion for summary
judgment with respect to plaintiffs’ substantive due
process claims will be granted.
C. Section 1983 Procedural Due Process Claims
Defendants next argue that they are entitled to
summary judgment on plaintiffs’ § 1983 procedural
due process claims against the defendant Officers. In
particular, defendants argue that plaintiffs’
procedural due process claims fail as a matter of law
because plaintiffs were afforded an adequate postdeprivation remedy. (Doc. No. 51-1 at 15–16.)
Plaintiffs do not dispute defendants’ arguments in
this regard and, therefore, do not contest dismissal of

51a
their procedural due process claims. (Doc. No. 57 at
9, n.1.) Accordingly, the court will grant defendants
motion for summary judgment with respect to those
claims.
D. Monell Claim
Defendants move for summary judgment on
plaintiffs’ § 1983 claim against defendant City of
Fresno.
Municipalities and local government units may be
sued under § 1983 for constitutional rights
violations, and are not shielded from liability by the
doctrine of qualified immunity. See Monell, 436 U.S.
at 690 (“Municipalities and other local government
units . . . [are] among those persons to whom § 1983
applies”); Doughterty v. City of Covina, 654 F.3d 892,
900 (9th Cir. 2011) (observing that qualified
immunity does not protect municipalities against
§ 1983 liability). However, a municipal entity or its
departments is liable under § 1983 only if a plaintiff
can show that the constitutional injury was caused
by employees acting pursuant to the municipality’s
policy or custom. Monell, 436 U.S. at 690–694;
Villegas v. Gilroy Garlic Festival Ass’n, 541 F.3d 950,
964 (9th Cir. 2008). A plaintiff can demonstrate the
existence of an unlawful municipal policy or custom
by presenting evidence of: (i) a facially
unconstitutional
government
policy,
or
an
unconstitutional, “longstanding practice or custom
which constitutes the standard operating procedure
of the local government entity”; (ii) a violation caused
by an individual with final policy-making authority;
or (iii) an individual with final policy-making
authority ratifying a subordinate’s unconstitutional
action and the basis for it. Gillette v. Delmore, 979

52a
F.2d 1342, 1346–7 (9th Cir. 1992). After proving that
at least one of these three circumstances exists, a
plaintiff must also identify evidence of direct and
proximate causation. City of Canton, Ohio v. Harris
489 U.S. 378, 389 (1989); Trevino v. Gates, 99 F.3d
911, 918 (9th Cir. 1996).
For a municipality to be liable under § 1983 based
on a theory of ratification, a plaintiff must show that:
(i) an individual with final policymaking authority
(ii) ratified (iii) a subordinate’s unconstitutional
action and the basis for that action. Gillette, 979 F.2d
at 1348. “[W]hether a particular official has ‘final
policymaking authority’ is a question of state law.”
City of St. Louis v. Praprotnik, 485 U.S. 112, 138
(1988); Lytle v. Carl, 382 F.3d 978, 982 (9th Cir.
2004) (“To determine whether a school district
employee is a final policymaker, we look first to state
law.”). The fact that a particular official has
discretion to make final decisions for a municipality
under state law does not, without more, give rise to
municipal liability. See Gillette, 979 F.2d at 1349;
Hansen v. City of San Francisco, No. 12-cv-04210JST, 2014 WL 1310282, at *7 (N.D. Cal. Mar. 31,
2014) (“The fact that a city employee has
independent decision-making power does not render
him a final policymaker for purposes of municipal
liability.”).
For a municipality to be liable under § 1983 based
on a “longstanding practice or custom, the custom in
question must be so “persistent and widespread” that
it constitutes a “permanent and well-settled city
policy.” Trevino, 99 F.3d at 918. Evidence of a single
constitutional violation is ordinarily insufficient to
establish a longstanding practice or custom. See

53a
Christie v. Lopa, 176 F.3d 1231, 1235 (9th Cir. 1999);
Davis v. City of Ellensburg, 869 F.2d 1230, 1233–
1234 (9th Cir. 1989); see also Trevino, 99 F.3d at 918
(evidence of “sporadic incidents” is insufficient to
establish municipal liability under § 1983). In other
words, municipalities “cannot be held liable solely
because [they employ] a tortfeasor,” and “cannot be
held liable under § 1983 on a respondeat superior
theory.” Monell, 436 U.S. at 691. To support
municipal liability under § 1983, the custom that is
alleged to exist must also have been adopted in
deliberate indifference to the rights asserted by the
plaintiff. See Bryan Cty. v. Brown, 520 U.S. 397,
403–404, 407 (1997) (noting that “‘deliberate
indifference’ is a stringent standard of fault,
requiring proof that a municipal actor disregarded a
known or obvious consequence of his action.”).
In limited circumstances, a local government’s
failure to train or supervise employees may rise to
the level of official government policy sufficient to
support municipal liability under § 1983. Oviatt v.
Pearce, 954 F.2d 1470, 1474 (9th Cir. 1992) (stating
that a local governmental entity may violate § 1983
if it has a “policy of inaction and such inaction
amounts to a failure to protect constitutional
rights”); cf. Connick v. Thompson, 53 U.S. 51, 61
(2011) (“A municipality’s culpability for deprivation
of rights is at its most tenuous where a claim turns
on a failure to train.”). A pattern of similar
constitutional violations by untrained employees is
“ordinarily necessary” to demonstrate a persistent
and widespread municipal policy of inadequate
training. Bryan Cty., 520 U.S. at 409. Moreover, a
municipality can only be liable under § 1983 for a

54a
policy of inadequate training when the failure to
train is deliberately indifferent, that is, where the
failure to train reflects a deliberate or conscious
choice. City of Canton, 489 U.S. at 389–91, 407
(stating that “when city policymakers are on actual
or constructive notice that a particular omission in
their training program causes city employees to
violate citizens’ constitutional rights, the city may be
deemed deliberately indifferent if the policymakers
choose to retain that program”); see also Connick,
563 U.S. at 61–62 (explaining that a city’s policy of
inaction in light of notice that its program will cause
constitutional violations “is the functional equivalent
of a decision by the city itself to violate the
Constitution”).
Here, defendants argue that they are entitled to
summary judgment on plaintiffs’ claim under § 1983
against defendant City of Fresno because there is no
evidence before the court on summary judgment that
plaintiffs’ constitutional rights were violated during
the September 10, 2013 search. (Doc. No. 51-1 at 20.)
Defendants also contend that, in any event, plaintiffs
have not and cannot demonstrate that defendant
Officers had final policymaking authority or that
defendant City of Fresno maintained a longstanding
policy of performing unconstitutional searches and
seizures. (Id. at 19–20.) Plaintiffs counter by arguing
that defendants are not entitled to summary
judgment on their Monell claim because they
withheld pertinent evidence during discovery, and
because there is a genuine, material dispute as to
whether the defendant City of Fresno maintained
unconstitutional policies or customs sufficient to
support Monell liability. (Doc. No. 57 at 16, 25.)

55a
In their complaint, plaintiffs allege municipal
liability based on two principal grounds. First,
plaintiffs assert that an individual with final
policymaking authority ratified unconstitutional
behavior by defendant Officers. (Id. at 13.) Second,
plaintiffs allege that defendant City of Fresno
maintained a longstanding custom or policy of (i)
employing and retaining of police officers with a
history of engaging in misconduct, (ii) inadequately
training and supervising officers; (iii) failing to
appropriately discipline officers; and (iv) maintaining
inadequate procedures for training, supervising, and
disciplining officers. (Id. at 11–14.)
With respect to the ratification theory of municipal
liability, plaintiffs have not produced any evidence
supporting their allegations on summary judgment.
Plaintiffs’ complaint does not clearly identify a final
policymaking authority whose decisions could be
attributed to the defendant City of Fresno, alleging
only that “Defendant CITY . . . knowingly
maintained, enforced, and applied an official
recognized custom . . . [of] ratifying the intentional
misconduct of [defendant] Officers.” (Doc. No. 1 at
11–13.) In their opposition to defendants’ summary
judgment motion, plaintiffs assert that defendant
Chastain represented a “final policymaker” whose
acts are sufficient to serve as a basis for municipal
liability. (Doc. No. 57 at 18 n.3.) However, “[n]ew
argument or allegations in a summary judgment
opposition do not raise triable issues of fact.”
Fernandez v. McKnight, No. 1:12–cv–557–BAM, 2014
WL 352238, at *2, n.7 (E.D. Cal. Jan. 31, 2014); see
also Pickern v. Pier 1 Imports (U.S.), Inc., 457 F.3d
963, 968 (9th Cir. 2006) (explaining that on summary

56a
judgment, the court will not consider new arguments
or allegation raised outside of the operative
pleadings).
In any event, plaintiffs’ contention that defendant
Chastain represented a “final policymaking
authority” for the defendant City of Fresno is
unpersuasive. Plaintiffs argue that defendant
Chastain represented a “final policymaker” because
he had a supervisory role as a sergeant of the Police
Department Vice Unit, citing deposition testimony
from defendant Chastain in which he explained his
responsibilities within that police unit. (Doc. No. 57
at 18 n.3.) It has been recognized that under
California law, however, police sergeants are not
responsible for establishing final department policies
for their department. See Collins v. City of San
Diego, 841 F. 2d 337, 341 (9th Cir. 1988) (“Although
a police sergeant may have discretion to recommend
hiring, firing, and discipline of employees, he or she
is not the city official responsible for establishing
final department policy in [the employment] area.”);
see also Cal. Gov‘t Code § 38630 (“The police
department of a city is under the control of the chief
of police.”); Hansen, 2014 WL 1310282, at *7
(observing that, while the Chief of Police has a final
policymaking role for many employment policies, the
city charter may assign certain employment
responsibilities to other government entities such as
the City Police Commission). Thus, even if the court
were to consider the arguments raised by plaintiffs
for the first time in their opposition to summary
judgment, defendant Chastain does not represent a
“final policymaking authority” whose actions can
give rise to municipal liability.

57a
As to their second theory of Monell liability,
plaintiffs also have failed to come forward with any
evidence on summary judgment of a “persistent and
widespread” pattern of unconstitutional behavior by
municipal employees. In support of their opposition
to the pending motion, plaintiffs have provided no
evidence that other officers with a history of
misconduct were employed and retained by
defendant City of Fresno. Plaintiffs also offer no
evidence that the training programs of the Fresno
Police Department were deficient, or that untrained
officers employed by the defendant City of Fresno
carried out other improper searches and seizures as
allegedly occurred here. Thus, even assuming that
the September 10, 2013 search was unconstitutional,
plaintiffs cannot meet their burden of showing a
genuine dispute of material fact as to the existence of
a longstanding practice or custom supporting Monell
liability here. See Christie v. Lopa, 176 F.3d 1231,
1235 (9th Cir. 1999) (“A single constitutional
violation is ordinarily insufficient to establish a
longstanding practice or custom.”); see also Hunter v.
County of Sacramento, 652 F.3d 1225, 1233 (9th Cir.
2011) (“[O]ur Monell decisions . . . have recognized
that liability for improper custom may not be
predicated on isolated or sporadic incidents and that
the custom must be so persistent and widespread
that it constitutes a permanent and well-settled city
policy.”) (internal citations omitted).
Plaintiffs’ discovery-related arguments are clearly
insufficient to create a triable issue of fact as to
defendant City of Fresno’s § 1983 liability. Plaintiffs
assert for the first time in their opposition to
summary judgment that defendants withheld

58a
information
about
allegedly
unconstitutional
customs and policies maintained by the City of
Fresno. (Doc. No. 57 at 16.) In particular, plaintiffs
argue that defendants did not disclose evidence
regarding defendant Chastain’s knowledge of other
improper actions carried by defendants Kumagai and
Cantu before the September 10, 2013 search. (Id. at
22–24.) However, discovery in this case has long
been closed under the court’s scheduling order, and
during the time permitted under that order,
plaintiffs did not file any motions to compel discovery
on this issue. (See Doc. No. 48) (setting the deadline
for the close of discovery for September 30, 2016).
Plaintiffs cannot now avoid summary judgment by
invoking a discovery dispute at the “proverbial
eleventh hour.” U.S. ex rel. Jajdelski v. Kaplan, Inc.,
No. 2:05-CV-01054-KJD-GWF, 2015 WL 1034055, at
*4 (D. Nev. Mar. 9, 2015) (rejecting plaintiff’s
argument that the court should deny defendant’s
motion for summary judgment because defendant
withheld discovery, since plaintiff was not diligent in
pursuing previous discovery opportunities).10
Defendants do not bear the burden of proof on
these issues at trial, and thus need only point to the
insufficiency of plaintiffs’ evidence to meet their
burden at the summary judgment stage of this
litigation. Celotex, 477 U.S. at 325. They have done
so. Given plaintiffs’ failure to produce evidence
supporting their allegations of municipal liability in
10

As noted above, defendant Chastain is not a “final
policymaker” for defendant City of Fresno. Thus, any evidence
that defendant Chastain knew of past misconduct by
subordinate officers would not, by itself, create a genuine issue
of material fact as to Monell liability.

59a
opposition to defendants’ motion, the court finds that
defendant City of Fresno is entitled to summary
judgment with respect to the § 1983 Monell claims
brought against it.
CONCLUSION
For all of the reasons set forth above:
1. Defendants’ motion for summary judgment (Doc.
No. 51) as to all of plaintiffs’ claims is granted; and
2. The Clerk of the Court is directed to enter
judgement in favor of defendants and close this
case.
IT IS SO ORDERED.
Dated: July 31, 2017

/s/ Dale A. Drozd
UNITED STATES
DISTRICT JUDGE

60a
APPENDIX D
_________
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______
No. 17-16756
_______
MICAH JESSOP; BRITTAN ASHJIAN
Plaintiffs-Appellants,
v.
CITY OF FRESNO; ET. AL.,
Defendants-Appellees.
_______
D.C. No. 1:15-cv-00316-DAD-SAB
Eastern District of California, Fresno
_________
ORDER
_________
Filed October 17, 2019
_________
Before: M. SMITH and NGUYEN, Circuit Judges,
and RESTANI, Judge.



The Honorable Jane A. Restani, Judge for the United States
Court of International Trade, sitting by designation.

61a
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has
requested a vote on it. Fed. R. App. P. 35. The
petition for rehearing en banc is DENIED.

